<html>
<title> - PREPARING FOR THE 2020 CENSUS: WILL THE TECHNOLOGY BE READY?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
      PREPARING FOR THE 2020 CENSUS: WILL THE TECHNOLOGY BE READY?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                AND THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2015

                               __________

                           Serial No. 114-82

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
 
 
 


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-362 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
  Jeff Post, Government Operations Subcommittee Deputy Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                                 ------                                

                 Subcommittee on Information Technology

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 3, 2015.................................     1

                               WITNESSES

The Hon. John H. Thompson, Director, U.S. Census Bureau
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. Steven I. Cooper, Chief Information Officer, U.S. Department 
  of Commerce
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Robert Goldenkoff, Director, Strategic Issues, U.S. 
  Government Accountability Office
    Oral Statement...............................................    23
    Written Statement............................................    25
Ms. Carol R. Cha, Director, Information Technology Acquisition 
  Management Issues, U.S. Government Accountability Office
    Oral Statement...............................................    39
    Written Statement............................................    41

                                APPENDIX

Rep. Plaskett Statement for Record...............................    78
RESPONSE Director Thompson, Census, Questions for the Record.....    79
RESPONSE Mr. Cooper, CIO, DOC, Questions for the Record..........   100
RESPONSE Mr. Goldenkoff, GAO, Questions for the Record...........   108
RESPONSE Ms. Cha, GAO, Questions for the Record..................   113


      PREPARING FOR THE 2020 CENSUS: WILL THE TECHNOLOGY BE READY?

                              ----------                              


                      Wednesday, November 3, 2015

                  House of Representatives,
 Subcommittee on Government Operations, joint with 
        the Subcommittee on Information Technology,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:36 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the Subcommittee on Government Operations] 
presiding.
    Present from Subcommittee on Government Operations: 
Representatives Meadows, Walberg, Carter, Grothman, Connolly, 
Maloney, and Clay.
    Present from Subcommittee on Information Technology: 
Representatives Hurd, Walker, Blum, Kelly, and Duckworth.
    Mr. Meadows. The Subcommittee on Government Operations and 
the Subcommittee on Information Technology will come to order. 
And without objection, the chair is authorized to declare a 
recess at any time. Thank you so much for being here. My 
apologies for being a little late coming from votes.
    We're here today to talk about a very important topic, but 
one that does not get much attention in the years that don't 
end in zero. And so as we talk about the Census, actually last 
month the Bureau released its operational plan for the 2020 
Census. The purpose of this plan was to ensure that the Bureau 
has all the necessary systems and procedures in place to 
effectively complete its core mission.
    As our witnesses' testimony will indicate, the plan for 
2020 is probably the most ambitious Census plan in our Nation's 
history. Quite simply, the Bureau is attempting to rewrite how 
the Census is conducted from the ground up, making it easier 
for people to respond and better value to the American taxpayer 
certainly as we look at that.
    These are laudable and necessary goals, particularly in 
light of the Bureau's track record. The 2010 Census cost some 
$12.3 billion or more than $100 per household. This is 
substantially more than the $8 billion or the about $70 per 
household cost of the 2000 year Census. In fact, we have to go 
all the way back to the 1970 Census to find a Census where the 
cost did not rise dramatically compared to its predecessor.
    To correct this unsustainable trend, the Census Bureau is 
attempting to greatly increase its ability to leverage 
technology to utilize preexisting data in a completely new way. 
Assuming the current design hold, this will be the first Census 
where Americans will be able to respond through the Internet. 
It will be the first where Nonresponse Followup enumerators 
will be able to collect data electronically and have the case 
list updated in real time and organize their route based on 
travel efficiency with directions. What a novel idea.
    It will be the first time that the Bureau will use both 
Federal, State, and local addresses updates for the past decade 
to avoid the added expense of a nationwide, in-field address 
canvass. It will also be the first time that the Bureau will 
use the Federal administrative records like tax returns and 
Medicare information to identify vacant housing units and to 
encourage self-response. This plan involves sending paper reply 
forms only to the older individuals that are in areas with poor 
Internet connectivity.
    If the Bureau can deliver on its plan, it's believed that 
the 2020 Census could cost less per household than the 2010 
Census and almost the same on an absolute level. However, 
``if'' is the key word in that last sentence, and in 
preparation for the 2010 Census, the Bureau spent some $600 
million attempting to build a proprietary handheld device for 
the enumerators to electronically report the field data. 
Despite this massive investment of hard-working American 
taxpayer dollars, poor program management led the Bureau to 
abandon that project in its entirety in 2008, forcing them to 
go back to paper response forms for the 2010 Census.
    The Bureau tells us that it has learned valuable lessons 
from that failed effort. The initiatives it is hoping to 
implement for the 2020 Census are several times the size and 
complexity of the program that failed in 2008 and it is why we 
are here today. Although I know that there are still some 
questions about how exactly the Bureau will use the 
administrative records, I feel confident in saying that all of 
the members on both the subcommittees are broadly supportive of 
what the Bureau is trying to accomplish.
    With that in mind, my goal today is to learn more about the 
Bureau's ongoing initiatives, but also make sure realistic time 
lines, deadlines, operational controls are in place to avoid 
the failures of the past. Given the current budget environment, 
we cannot afford another incident like happened in 2008.
    But in closing, I would like to thank all of our witnesses. 
And some of you I've met before. And I'm encouraged to have you 
with us for your time today and I look forward to working with 
you as the clock ticks towards a Census date of April 1, 2020.
    The chair now recognizes my good friend, the ranking member 
of the Subcommittee on Government Operations, Mr. Connolly, for 
his opening statement.
    Mr. Connolly. Thank you, Mr. Chairman. And thanks for this 
joint hearing, which is well-timed given the recent release of 
the 2020 operational plan for the Census.
    At the midpoint of this decade it's instructive to look at 
lessons learned from the last Census and the preparations 
underway for the next. The data derived from the Census 
provides a treasure trove of information both to the public and 
private sectors.
    For the government, Census data provides the foundation for 
our representative system of governance. From Congress down to 
local school boards, Census data is used to prudently and 
fairly allocate Federal, State, and local dollars to the 
communities we represent. For businesses, this information 
informs employment and capital investment decisions, critical 
for the private sector.
    The Census is one of the few government functions expressly 
mandated by the Constitution. By the way, so is the Postal 
Service. And the advent of technology holds the promise of 
making this once-in-a-decade enumeration less arduous and 
hopefully less costly.
    Success will be largely dependent on the management and 
deployment of technology. The Bureau's botched attempt to 
deploy mobile handheld devices for the 2010 Census actually 
increased costs--increased costs--by $3 billion. The 2010 
Census was 56 percent more costly than its predecessor in 2000.
    Today the Bureau is proposing to expand its use of 
technology, including new handheld devices, with the stated 
goal of lowering its latest estimated cost by nearly one-third. 
That is a noble goal. One of the new initiatives the Bureau 
believes will produce great efficiencies and savings is the 
commonsense step of cross-referencing data from other Federal 
and non-Federal sources, such as the IRS, the U.S. Postal 
Service, and others. A county-level test earlier this year 
showed using such records reduced the follow-up workload at 
homes known to be vacant by nearly 12 percent.
    In addition, the Bureau intends to expand use of modern 
technology. I hope we hear today what lessons from the 2010 
experience with handheld devices are being applied to this new 
effort.
    I'm also pleased to finally welcome the Census to the 21st 
century by offering an online response option. In today's high-
tech mobile society, people simply expect to be able to conduct 
business online and in many cases in the palm of their hand 
with a smart device.
    I'm encouraged by Mr. Cooper's prepared remarks in which he 
indicates the Bureau is on track to meet its goals. As the 
Commerce Department's CIO, he is accountable for overseeing the 
Census Enterprise Data Collection and Processing initiative, 
which will integrate and standardize systems and data sharing 
across the Bureau.
    I want to congratulate him on his efforts to implement the 
FITARA act--better known as Connolly-Issa, Issa-Connolly--which 
is guiding IT investments with enhanced risk assessments and 
performance metrics. Commerce has been a leader among Federal 
agencies for embracing the new IT management model, and I would 
welcome his insight on how it has helped--or not--improve 
preparations for the Census.
    I also look forward to hearing responses from Mr. Cooper 
and Mr. Thompson, Director of the Census Bureau, to concerns 
raised by the GAO that the Bureau is not moving quickly enough 
to achieve certain milestones. For example, GAO has cited gaps 
in staffing and the deferral of key IT decisions, such as the 
scope of the IT infrastructure that will be necessary, 
cybersecurity protocols, and a procurement strategy for the 
handheld devices. These are important issues that must be 
resolved soon as the window of time in which the Bureau has to 
complete this transformation before end-to-end testing of the 
system is scheduled to begin in 2018.
    As Mr. Cooper notes, however, the Bureau has delivered its 
operational plan 3 years earlier than it did in 2010. And, 
hopefully, that allows us time to identify and address gaps or 
shortfalls well in advance of the deadline.
    Finally, Mr. Chairman, let me address the elephant in the 
room, which is the urgency for Congress adequately to fund the 
Census. Providing robust oversight of its operations and these 
IT investments is a laudable and necessary goal for us, but it 
is for naught if the Bureau does not have the resources it 
needs with which to execute its constitutional duty in what has 
now become a monumental task given the size of our population 
and the complexity of our country.
    The initial budget proposal offered by my friends for 
fiscal year 2016 would have reduced funding for the Census 
Bureau by $374 million, almost one-third compared to the 
President's request. I'm hopeful that last week's bipartisan 
budget agreement will allow us to restore those necessary 
investments. We cannot afford to shortchange an activity so 
fundamental to our democracy and the sustained well-being of 
our communities.
    I look forward to hearing from the panel. Thank you, Mr. 
Chairman.
    Mr. Meadows. Thank you, Mr. Connolly.
    The chair recognizes the chairman of the Information 
Technology Subcommittee, the gentleman from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Chairman. I would like to thank the 
distinguished gentlemen from North Carolina and Virginia for 
holding this important hearing today.
    Every 10 years the United States Census Bureau administers 
a very important survey of the American public. It's vital for 
many reasons. We will use the gathered information to ensure 
the proper distribution of government funds and the 
proportionate number of representatives in government. But in 
order to make sure the information collected is as accurate as 
possible, the Census Bureau must deploy the best possible 
tactics and plans to collect the data.
    I want to give credit where credit is due. The Census 
Bureau is attempting to go to great lengths to drive down their 
costs and the results will be significant. This is atypical of 
the culture in Washington where agencies always seem to be 
asking for more tax dollars without producing the results that 
warrant them. The Census Bureau has accomplished this by 
utilizing existing information and new technology, something 
that other Federal agencies could learn from.
    But like many Federal agencies, the Census Bureau has 
serious IT challenges that must be addressed and corrected now. 
First, while the Bureau has made some significant progress in 
fully staffing its IT department, a number of key leadership 
positions remain vacant. These positions need to be filled 
immediately, and I'm looking forward to this hearing today on 
how the agency plans to address this.
    Second, the Census Bureau hasn't addressed all the GAO 
recommendations on improving its IT systems. We saw what 
happens when agencies ignore IG reports with the massive data 
breach at OPM. This is a trend that I continually see as 
chairman of the Subcommittee on Information Technology, Federal 
agencies ignoring IG and GAO recommendations. It is vital that 
the Census Bureau take action to address all of the remaining 
recommendations as soon as possible.
    Finally, I agree wholeheartedly with the GAO and our 
witness, Ms. Cha, that the Bureau must begin now to make 
critical IT decisions. Their deferral of decisions in IT so far 
has, in my view, increased the overall risk around the 2020 
Census. I look forward to hearing from all our witnesses today 
on specific ways we can successfully utilize technology to 
complete an accurate and cost-effective Census in 2020. I yield 
back.
    Mr. Meadows. I thank the gentleman.
    The chair now recognizes Ms. Kelly, the ranking member of 
the Subcommittee on Information Technology, for her opening 
statement.
    Ms. Kelly. Thank you, Mr. Chair.
    Good afternoon. Mr. Chairman, thank you for holding this 
important hearing. I would also like to extend my thanks to the 
witnesses here today.
    The purpose of this oversight hearing is to determine if 
the Census Bureau's plans for 2020 Census is sufficient to 
ensure complete and accurate counts of the Nation's population. 
Getting an accurate count is important. Numerous key decisions 
are based on data collected from the decennial Census. Census 
data is integral in determining the equitable distribution of 
Federal funds, enforcing civil and voting rights legislation, 
and determining congressional proportionment, among other 
things.
    With advances in technology, we have tools available to 
help administer the Census more efficiently and accurately. For 
instance, in October 2014, the Bureau began an enterprise-wide 
IT initiative called the Census Enterprise Data Collection and 
Processing Program, which is intended to, ``deliver a system-
of-systems to serve all of the Bureau's survey, data 
collection, and processing functions--rather than continuing to 
build and maintain unique survey-specific systems with 
redundant capabilities.''
    CEDCaP will help reengineer fieldwork by implementing an 
operational control system to track and manage field 
assignments. This will help census takers decide, using real-
time data, which houses to visit on a daily basis.
    CEDCaP will also be responsible for the development of a 
Web-based survey application in order to maximize Internet 
self-response. The 2020 Census will be the first Census with 
the option of responding online. The Bureau will rely heavily 
on Internet responses as part of its cost-saving initiatives.
    The Bureau also decided to use mobile devices for field 
data collection purposes. The Bureau estimates it will save 
nearly $400 million through the increased use of technology, 
which is certainly to be commended.
    While technology can help increase efficiency, which yields 
significant sayings, I am also concerned about the safety of 
the public's personal information. As you may know, the Bureau 
experienced a data breach in July. While no sensitive 
information was stolen, this incident underscores the 
importance of having controls in place to protect sensitive 
information.
    I applaud the Bureau for responding swiftly to the breach 
and recognizing the need for continued monitoring of their 
systems. It is our job to ensure that these agencies have the 
resources they need to keep our private information safe from 
hackers.
    Additionally, I share GAO's concern that a number of 
important IT decisions have yet to be made for the 2020 Census. 
GAO recommends that key IT decisions be made quickly or we'll 
find ourselves in the situation we saw in 2010, where a costly 
IT project went awry, causing turmoil for the entire Census 
operation.
    I look forward to hearing from the Bureau regarding its 
ability to meet critical milestones as they finalize plans for 
2020, and I look forward to a productive discussion on this 
vital issue.
    I yield back the balance of my time, and thank you.
    Mr. Meadows. Thank you, Ms. Kelly.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    Mr. Meadows. We will now recognize our panel of witnesses. 
I'm pleased to welcome the Honorable John Thompson, the 
Director of the U.S. Census Bureau; Mr. Steven Cooper, Chief 
Information Officer at the U.S. Department of Commerce; Mr. 
Robert Goldenkoff, Director of Strategic Issues at the U.S. 
Government Accountability Office; and Ms. Carol Cha, Director 
of Information Technology Acquisitions Management Issues at the 
U.S. Government Accountability Office.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you would please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth? Thank you. Please be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    And in order to allow time for discussion, we would 
appreciate if you would limit your oral testimony to 5 minutes. 
However, your entire written statement will be made part of the 
record.
    Mr. Thompson, who I would also say looks an awful lot like 
Robert De Niro, you are recognized for 5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF JOHN H. THOMPSON

    Mr. Thompson. Thank you, Chairman Meadows.
    Chairman Meadows, Chairman Hurd, Ranking Members Connolly 
and Kelly, thank you for the opportunity to testify this 
afternoon. I'm also pleased to be testifying with Mr. Steve 
Cooper, the Chief Information Officer of the Department of 
Commerce, with whom we work very closely.
    I am honored to serve as the Director of the Census Bureau 
which has the tremendous responsibility of administering an 
accurate Census that fairly represents everyone in America. We 
have reached a major milestone in our preparations for the 2020 
Census. Just last month, we released an operational plan that 
allows us to change the way we have conducted the decennial 
Census for over 46 years and save $5.2 billion.
    For each Census since 1970, the paper-based process has 
been the standard, and it has been increasingly challenged by 
the growing diversity and complexity of our Nation. We do not 
believe that a paper-and-pencil approach to the Census is 
sustainable for the 2020 or future Censuses. The Census Bureau 
has concentrated on four innovation areas that have the 
potential to improve Census operations and save taxpayers 
money. I will briefly describe each of these innovation areas.
    First, we're building a more accurate address list, and for 
2020, we have reengineered the process to incorporate a 100 
percent in-office canvassing that will be supplemented with up 
to a 25 percent in-field operation. We have already started 
this effort, and we expect to realize $900 million in cost 
savings from this strategy.
    Second, we want to make it easier for people to respond, 
and our strategy incorporates not only the Internet as the 
primary response option, but also an integrated communication 
and partnership strategy and tailored contact strategies. We 
will mail an invitation to all housing units encouraging 
Internet response.
    For 28 percent of the addresses, however, in areas with low 
Internet connectivity, we will be including a paper 
questionnaire in the first mailing package. We will also 
incorporate a Census Questionnaire Assistance program with both 
telephone and Web-chat response options. We believe that by 
opening up the process and making it easy, we will encourage 
participation with respondents who have typically not 
responded. These efforts offer the potential of approximately 
$400 million in savings.
    Third, using existing information already provided to the 
government, we can reduce door-to-door visits in what we call 
the Nonresponse Followup operation. To reduce this workload, we 
are proposing to use administrative records for enumeration in 
two ways. We are planning to use administrative records to 
remove vacant addresses before sending census takers into the 
field, and we are also planning to use administrative records 
to enumerate occupied housing units after we have knocked on 
each door at least once. Using administrative records in this 
way will result in savings of $1.4 billion.
    Fourth, we are automating our field operations to save an 
estimated $2.5 billion. We will now use mobile technology to 
achieve significant efficiencies in the 2020 Census. I should 
note that we have successfully developed an innovative 
prototype system. We are now able to provide optimized 
assignments to our interviewers, including daily route 
assignments, the best time of day to attempt contact. We are 
also able to provide the supervisors of these enumerators real-
time updates and alerts regarding the progress of the workers 
they oversee.
    Supporting these efforts is our enterprise approach to 
survey and Census data collection and processing through shared 
services, which we call CEDCaP. In the past, duplicative 
systems were created and used for every survey and Census. We 
will now move to a small suite of shared, reusable systems. 
Based on my experience in overseeing the 2000 Census and in the 
private sector, I am confident we are on course and we have a 
schedule for all major decisions.
    Finally, we are committed to protecting the privacy and 
confidentiality of individual information. The Census Bureau 
has implemented a robust, comprehensive, and layered 
cybersecurity program that is constantly evaluated by experts.
    The last 5 years have provided the groundwork for the 21st 
century Census. And now, looking forward, we must turn our 
attention to counting every person in America. But still a 
significant risk we face is receiving adequate funding. If 
adequate funding is not received in fiscal year 2016, we will 
prioritize activities to ensure that the 2018 end-to-end test 
will take place on time. We are committed to ensuring an 
accurate Census that fairly represents all people in America. 
If we have to defer activities to later years, the cost of the 
Census will increase.
    I am confident the Census Bureau can achieve these 
objectives given congressional support, and I look forward to 
discussing the 2020 Census operational plan and other aspects 
of our planning with you today. Thank you.
    [Prepared statement of Mr. Thompson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Meadows. Thank you so much.
    Mr. Cooper.

                 STATEMENT OF STEVEN I. COOPER

    Mr. Cooper. Chairman Meadows, Chairman Hurd, Ranking 
Members Connolly and Kelly, thank you for the opportunity to 
testify this afternoon. I am Steve Cooper, Chief Information 
Officer for the Department of Commerce. It is my pleasure to 
appear before the subcommittees and update you on our work as 
we prepare for a successful 2020 Census.
    The Census Bureau is working to ensure the necessary 
information technology, or IT, is in place to support the 2020 
Census. The Census Bureau faces an increasing set of 
challenges, including declining survey participation rates, 
increased survey costs per household, funding constraints, and 
cybersecurity threats. These challenges all create risk for the 
2020 Census and the Census Bureau has developed a multifaceted 
strategy that will address these challenges, will transform the 
business model, and modernize 2020 Census operations.
    The 2020 Census requires an IT architecture and 
infrastructure that is agile, flexible, scalable, and able to 
accommodate innovations and advances being introduced through 
IT. As the focus of the 2020 Census shifts from planning to 
execution, our collective attention must include IT readiness. 
The Census Bureau has made significant progress in process 
improvements, IT governance, and closing the skill gaps to 
ensure it is ready for the 2020 Census.
    One of the major enterprise initiatives supporting the 2020 
Census is the Census Enterprise Data Collection and Processing 
initiative, what we call CEDCaP. The CEDCaP initiative aims to 
create an integrated and standardized suite of systems that 
will provide shared data collection and processing solutions 
across all Census Bureau operations. As the Census Bureau 
proceeds, it is working to ensure that it strikes the right 
balance between commercial off-the-shelf solutions and custom-
developed solutions.
    In terms of mobile solutions, the Census Bureau is 
exploring a mix of Device as a Service and Bring Your Own 
Device for the 2016 Census Test. The test results will inform 
subsequent decisions on which mobile devices are leveraged in 
support of the 2020 Census. In either mobile scenario defined, 
Census data will be protected at rest and in motion.
    The Census Bureau is also exploring cloud computing 
technology. Various tests are underway to explore processing 
and storing data in some combination of various cloud 
infrastructures. For the 2016 Census Test, the Census Bureau 
will deploy the Internet response option in a secure, FedRAMP-
certified, commercially provided private cloud.
    The Census Bureauis further exploring how to best employ 
features like auto-scaling to meet performance demands of the 
2020 Census, particularly for systems such as the Internet 
self-response option that must scale to meet the short-term 
anticipated demand of millions of users.
    In support of this work, the Census Bureau has awarded an 
initial cloud computing services contract. This contract will 
also allow the Census Bureau to gain essential skills and 
knowledge to be applied during all phases of delivering the 
2020 Census.
    Obviously, securing confidential data is a major concern 
for the Census Bureau. The Census Bureau uses an enterprise 
layered defense strategy to protect its data and systems. For 
example, the Census Bureau relies on the Department of Homeland 
Security-managed Einstein program to protect external Internet 
traffic, and the Census Bureau's internal network is segmented 
to isolate the systems that are Internet accessible.
    The Census Bureau has also worked closely with NIST to 
implement a risk management framework for all of its systems. 
Each system also undergoes continuous monitoring to maintain 
its authorization. This monitoring consists of both automated 
and manual assessments.
    Finally, the Census Bureau continues to work with my office 
in their implementation of the Department of Homeland 
Security's Continuous Diagnostics and Mitigation program and 
our continuing ongoing cyber sprint effort.
    Based on my observations to date, the Census Bureau is well 
positioned to take advantage of early planning, testing, and 
operational designs. The 2020 Census program is also poised to 
leverage enterprise initiatives to realize significant 
efficiencies. However, to adequately implement these strategies 
and meet the challenges will require the best efforts of the 
Census Bureau and continued congressional support.
    I am deeply grateful for this opportunity to testify before 
this committee and share these observations, and I'm pleased to 
answer any questions you may have. Thank you.
    [Prepared statement of Mr. Cooper follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Meadows. Thank you, Mr. Cooper.
    Mr. Goldenkoff.

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Chairmen Meadows and Hurd, Ranking Members 
Connolly and Kelly, and members of the Government Operations 
and IT Subcommittees, thank you for the opportunity to be here 
today to discuss the progress the Census Bureau is making in 
controlling the cost of the 2020 enumeration.
    The Bureau's goal is to conduct the Census at a lower cost 
per household than the 2010 Census, adjusted for inflation, 
while maintaining accuracy. This would mean less than around 
$94 per household. It's an extremely difficult task as the 
population is growing steadily larger, more diverse, 
increasingly difficult to find, and less willing to participate 
in the head count. Moreover, the Census is conducted on a tight 
schedule with little room, if any, for slippage.
    The Bureau plans to hold down costs in part by expanding 
its use of data that has already been collected by other 
government agencies in the course of administering their 
programs. Known as administrative records, such information can 
help improve accuracy and reduce the need for labor-intensive 
field operations, especially during one of the most expensive 
of all Census activities, Nonresponse Followup. The Bureau has 
used administrative records in previous decennials, but not to 
the same extent as that planned for 2020.
    In my remarks today, which are based on a report we issued 
last month, I will describe the opportunities and challenges 
the Bureau faces in using administrative records and the steps 
it needs to take going forward to help ensure they produce the 
desired results.
    The Bureau estimates it can save up to $1.4 billion 
compared to traditional census-taking methods by using 
administrative records for three purposes during Nonresponse 
Followup. They include identifying and removing vacant and 
nonexisting housing units from the follow-up workload before 
Census workers start knocking on doors. Second, enumerating non 
responding occupied housing units if the information meets a 
certain quality threshold. And third, predicting the best times 
to visit a household.
    Using administrative records for these activities can 
greatly improve productivity. For example, in a test conducted 
in Arizona's Maricopa County earlier this year, the Bureau 
reduced the follow-up workload by 11 percent by removing vacant 
and nonexistent households.
    The Bureau is also exploring nine additional applications 
of administrative records that may help reduce cost or improve 
quality still further. The Bureau currently has access to data 
held by the U.S. Postal Service, IRS, and Selective Service 
System, among other agencies. It's also considering other data 
sets, such as the National Directory of New Hires. The Bureau 
believes the NDNH and other records could improve its ability 
to find historically hard-to-count populations, such as certain 
minority groups and young children. However, the Bureau still 
needs to secure statutory access to the NDNH.
    The Bureau's planned use of administrative records is 
commendable, but much work remains. For example, in our October 
report we recommended that the Bureau set deadlines to decide 
which, if any, of the nine additional uses of administrative 
records still under consideration will be used in 2020. This 
will help ensure the Bureau has sufficient time to review the 
data sets, determine their fitness for use, and fully test 
them.
    Final decisions are needed by the end of fiscal year 2017 
in order to be included in the Bureau's full end-to-end test in 
2018. However, these deadlines do not appear in schedule 
documents.
    The Bureau must also continue to address challenges to 
using administrative records, such as protecting confidential 
information and ensuring congressional and public acceptance of 
the Bureau's plan to share personal data across government 
agencies. Fully implementing our prior recommendations to 
strengthen the security of its information systems and 
developing a congressional outreach strategy could help address 
these challenges.
    In summary, the bureau has made noteworthy progress in 
expanding its use of administrative records. Going forward, 
though, perhaps one of the biggest risks the Bureau faces is 
the ticking clock. Any delays could have serious implications 
for downstream activities. As a result, continued congressional 
attention will be needed to help ensure that the Bureau, one, 
stays on schedule; two, sets deadlines for key go/no-go 
decisions on additional uses of administrative data; and three, 
fully implements our prior recommendations.
    This concludes my remarks, I'll be happy to answer any 
questions that you may have.
    [Prepared statement of Mr. Goldenkoff follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Mr. Meadows. Thank you.
    Ms. Cha.

                   STATEMENT OF CAROL R. CHA

    Ms. Cha. Chairmen Meadows and Hurd, Ranking Members 
Connolly and Kelly, and members of the subcommittees, I would 
like to thank you for inviting me to testify today. It's your 
continued oversight in hearings like these that are vital to 
ensuring that the 2020 Census is effectively managed.
    The Bureau will rely on an enterprise-wide IT initiative 
called CEDCAP to deliver the systems and infrastructure needed 
to carry out its redesigned operations. For example, CEDCAP is 
planning to deliver an online survey instrument and a cloud 
computing solution to support an Internet response option. For 
field reengineering, the program is planning to implement a new 
system to track and manage fieldwork, as well as test the use 
of mobile devices for field data collection.
    Based on our work to date, I'd like to highlight two key 
challenges regarding the Bureau's plans for 2020. First, the 
deferral of key IT decisions in the face of time constraints. 
By August of 2017, the Bureau intends to begin preparations for 
end-to-end testing to validate that CEDCaP systems are ready to 
go live on Census Day. This gives the Bureau less than 2 years 
to develop and integrate planned systems.
    While the Bureau has made many key decisions about its 
redesigned Census as described in its October plan, there are 
critical IT decisions that have not yet been made, including 
whether the Bureau will build or buy the needed systems.
    This lack of prioritization of IT decisions has been a 
continuing trend, which we have reported on over the past few 
years. Most recently, in February we reported that the Bureau 
had not determined how key research questions would be 
answered, such as the expected rate of respondents using the 
Internet survey or the IT infrastructure needed to support this 
option. As such, we made recommendations to improve the 
Bureau's ability to answer these questions in time to make 
those decisions in October. However, this has not happened yet.
    Furthermore, the Bureau does not intend to make these 
decisions and other key ones until 2016 through 2018. Among 
other things, the build-or-buy decisions won't be made until 
next June at the earliest. Based on the current sequencing of 
planned decisions, the Bureau will have about a year to develop 
and then integrate these systems and then have them ready for 
end-to-end testing. Further, the mobile device strategy for 
fieldwork is not expected until 2 months after the start of 
this testing.
    Unless the Bureau makes these key decisions soon, it will 
likely run out of time to put CEDCaP systems in place. And I 
can refer you to the screen shot above, which shows examples of 
deferred 2020 decisions overlaid on top of the Census schedule.
    [Slide.]
    Ms. Cha. And, again, if you look from left to right, the 
first one, the build-or-buy decisions, June 2016 at the 
earliest, and then we come up on Census end-to-end testing, 
which preparations begin in August of 2017. So, again, there's 
very limited time to integrate and implement these systems in 
time for those tests.
    The second challenge is the Bureau's current IT posture. To 
its credit, important progress has been made to strengthen and 
institutionalize selected IT management areas, such as 
governance and requirements management. However, critical IT 
leadership gaps exist. Most notably, the Bureau is without a 
permanent chief information officer. Other key vacancies 
include the chief of the Office Information Security and chief 
cloud architect. The Bureau is aggressively working to close 
these gaps. But if they do remain open, its ability to 
effectively deliver CEDCaP will be hampered.
    In addition, the Bureau still has work remaining to fully 
address our recommendations to improve information security. In 
January 2013, we made 115 recommendations to address control 
deficiencies, such as access control to protect its systems 
from intrusion. As of today, the Bureau has fully addressed 66 
of them. The remaining open recommendations, of those, 30 
require additional actions by the Bureau and the other 19 are 
under review. Continued focus on completing this effort must be 
a high priority to ensure that sensitive information collected 
during the Census is adequately secure.
    In summary, with the deferral of key IT decisions, the 
Bureau is running out of time to implement the systems needed 
to support the redesign and achieve its projected $5.2 billion 
in cost savings. Moving forward, swift actions to fully 
implement our open recommendations must be taken. Doing so will 
improve the Bureau's ability to deliver on its IT plan and 
realize savings.
    That concludes my statement. I look forward to addressing 
your questions.
    [Prepared statement of Ms. Cha follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Meadows. Thank you so much.
    The chair recognizes the chairman of the Subcommittee on 
Information Technology, Mr. Hurd, for 5 minutes for a series of 
questions.
    Mr. Hurd. Thank you, Chairman.
    And thank you all for your testimony today.
    And, Ms. Cha, I want to thank you for your written 
statement. It was very good in helping to explain some of the 
unique challenges that we're having to provide oversight on.
    My first question, I guess, is first to you, Director 
Thompson. We've talked about the lack of a permanent CIO. We 
talked about the lack of a chief of the business integration, 
which is managing the CEDCaP program. What are the plans to 
fill those spots? What are the challenges that you're facing in 
getting people there? And who is filling that role as a 
temporary basis?
    Mr. Thompson. Thank you, Congressman.
    So the job announcement for the CIO is out and available 
now. CIO Cooper and I have been widely circulating it so that 
we can be sure that we get a good number of applicants. Harry 
Lee, sitting behind me, has done an excellent job in the 
interim. He's the deputy CIO. And he's been doing a great job 
filling the vacancy in the absence, and we've made a number of 
accomplishments in the IT area.
    Mr. Hurd. How long have these spots been open?
    Mr. Thompson. It became open in July.
    Mr. Hurd. Okay. And we have applicants putting information 
in or submitting resumes or whatever the process is?
    Mr. Thompson. So I don't know that I can talk about the 
applicants at this point in the process.
    Mr. Hurd. Mr. Cooper, did you have something to add?
    Mr. Cooper. Yes. With the position open, it will remain 
open for 30 days. Our human resources group will do the initial 
processing of those applicants and those who are well qualified 
will be passed to the appropriate review panel. We'll then make 
that ultimate decision about selecting a CIO.
    Mr. Hurd. Because my concern is----
    Mr. Cooper. So we have not yet seen any of the responses. I 
don't have any information on that.
    Mr. Hurd. Thank you. My concern is with the lack of an 
identified leader in managing this process, if CEDCaP is going 
to be the process, and we have less than 2 years, we need to 
make sure that that person is in place.
    My next set of questions is there was 115 recommendations, 
as Ms. Cha pointed out in her written and verbal testimony. We 
have information that 19 of those 115 have been addressed and 
work has started on 66, or 66 of those have been addressed. Can 
you give me an update?
    Mr. Thompson. Certainly. So last April, when we received--
well, last April we responded to all 115 recommendations that 
the GAO made, and we've been working with the GAO since that 
point. To date, we believe that they have closed 65 of them. We 
believe that they referred 19 back to us. And based on our 
discussions, we're still waiting to hear from them on about 30 
more. So that's the current status from our records.
    Mr. Hurd. Ms. Cha, do you have any insights or comments on 
that?
    Ms. Cha. Sure. So as of today, 66 have been closed out. But 
I believe Director Thompson has those numbers transposed. There 
are 19 that are currently under review and there are 30 
remaining recommendations that still require additional actions 
by the Bureau.
    Mr. Hurd. What's the biggest priority one of those 30 that 
require action?
    Ms. Cha. Sure. So in terms of the open recommendations, 
they relate to the identification and authentication types of 
controls. So that would be like password controls, unsecured 
system accounts and access, as well as configuration 
management. So that would be like----
    Mr. Hurd. All the things that have led to a number of 
breaches not only in the private sector, but in the Federal 
Government.
    Ms. Cha. That's correct.
    Mr. Hurd. And I'm going to address this to you, Mr. Cooper, 
since this falls in your bailiwick. What's being done to 
address that, on the authentication and the patch management 
programs?
    Mr. Cooper. Okay. We've taken a couple steps proactively 
following the recent OMB 30-day cyber----
    Mr. Hurd. Let me rephrase the question. When is this going 
to be completed?
    Mr. Cooper. I wish I could give you an exact date. We have 
initiated a whole series of activities that are targeted for 
completion by 31 December of this fiscal year--I'm sorry, this 
calendar year. That does include the open actions from the GAO 
report.
    We've also taken an additional step, and that is that we've 
created internal cross-bureau teams of our cyber experts, and 
we are bringing those to bear to assist all of our bureaus but, 
in this case the Census Bureau, in helping close these actions. 
So in addition to the Census Bureau's cyber experts, we've 
brought additional expertise from within the Department. We 
believe that that will help us both meet our target deadline 
and bring additional skills and expertise objectively to bear 
on these open items.
    Mr. Hurd. Thank you.
    And my last question to you, Director Thompson, and I'm 
running out of time, I've run out of time, if you realize 
savings from using new technology or a different process, are 
you able to use that savings within the calendar or the fiscal 
year on other projects?
    Mr. Thompson. Congressman----
    Mr. Hurd. And that's not a trick question.
    Mr. Thompson. No, no, I know----
    Mr. Hurd. Because I'm trying to figure out, if you're doing 
things, you're realizing savings, I want you to be able to use 
those savings to go back in to do your work.
    Mr. Thompson. So we are not going to be asking for anything 
more than the money we need to do the Census, and we believe 
that we are going to avoid $5.2 billion in costs. In saying 
that, we also plan to make sure that we have the right 
resources in the right areas to make sure we count everyone as 
well.
    Mr. Hurd. Mr. Chairman, I apologize, I yield back the time 
that I do not have.
    Mr. Meadows. No, I thank the gentleman for his insightful 
questions.
    The chair recognizes the gentleman from the 11th District 
of Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I want to point 
out I think three of our witnesses are Virginians and all three 
confirmed under oath that they voted.
    Now, Mr. Thompson, where are you from.
    Mr. Thompson. I'm from Old Town Alexandria.
    Mr. Connolly. All right. So you're a Virginian. All right. 
All four. Bless them. Wonderful people doing wonderful work, 
let's just be honest.
    Anyway, thank you, Mr. Chairman.
    First of all, I want to say to all of you on the panel, 
you've got four people up here who actually care about the 
mission and are focused on it and not allowing a lot of 
extraneous issues to get in our way of trying to be supportive 
in a rational way.
    And I would just note that, because I really appreciate my 
friends, Ms. Kelly and Mr. Meadows and Mr. Hurd, for really 
being in a collaborative spirit, and we're collaborating on 
especially a lot of other IT issues too. I just want to say 
that because it doesn't happen as often as we'd like up here 
and it hardly ever gets recognized when it does. And so I hope 
we can take this as a magic moment and try to work together 
with the executive branch on the Census.
    Yeah, that's right.
    Director Thompson, help us understand, how much money do 
you believe the Census requires to undertake its mission this 
next time? We're trying to follow the numbers.
    Mr. Thompson. So we estimate that we're going to, for the 
full cycle cost of the Census' interoperational plan, we're 
going to require $12.3 billion.
    Mr. Connolly. $12.3. And is that what you requested in the 
budget?
    Mr. Thompson. Well, we request the budget on a yearly 
basis.
    Mr. Connolly. I know.
    Mr. Thompson. We are moving towards that with our request 
for fiscal year 2016.
    Mr. Connolly. And what do you project right now the 
shortfall between the request--I think I cited $375 million, 
but that's probably just for 1 year--what is the shortfall 
between what you need and so far what has been appropriated or 
what you project to be appropriated?
    Mr. Thompson. Congressman, I think you hit the number on 
the head when you mentioned the shortfall that we initially saw 
for fiscal year 2016. However, we haven't seen the final 
appropriation----
    Mr. Connolly. We haven't either.
    Mr. Thompson. --for fiscal year 2016.
    Mr. Connolly. We haven't either.
    Are you able to disaggregate for the purposes of funding 
the Census what you think you would get appropriated pursuant 
to the new budget agreement we passed last week? We increased 
domestic discretionary investments by roughly $25 billion for 
this next fiscal year in that budget agreement, 25 for defense, 
25 for domestic. Any idea how much of your projected shortfall, 
in an ideal world, I know it's hard because we haven't 
appropriated it yet, but any sense of whether that would help 
the funding shortfall?
    Mr. Thompson. Congressman, the only numbers I'm familiar 
with are the President's budget and the actions that have taken 
place.
    Mr. Connolly. Okay. Well, I think it's going to be really 
important to follow that and have better answers. I can't ask 
you to have a better answer yet. We don't either. But if the 
four of us are going to be helpful and supportive----
    Mr. Thompson. Right. But we are preparing to work with the 
Congress to explain exactly how we'll spend every dollar that 
we get----
    Mr. Connolly. There was a method to my madness in telling 
you you've got four people here who actually want to get 
something done and be productive. And part of that is the 
budget. But we got to know--we've all got to be on the same 
page in terms of those projected numbers.
    Mr. Cooper, thank you for your leadership as CIO. Would 
that we could replicate you in lots of other Federal agencies. 
Help us have confidence. In 2010, we had a handheld device 
meltdown. We're doubling down on those devices for this next 
go-round. What makes us confident that we're, in fact, going to 
make it work and save money, as opposed to another meltdown, 
only double?
    Mr. Cooper. Okay. The first observation would be that in 
2010--and I was not part of the Department in 2010, so the 
information I'm sharing is information I've gained since coming 
onboard. If I don't get something exactly right or if you need 
more detail, I'm more than happy to come back up, set up 
briefings, fill in the details. But based upon what I've 
investigated and what I've kind of been involved and learned, 
the first important difference, the technology that was used or 
attempted to be used in 2010 was very specific, specialized, 
proprietary technology.
    Now, compare and contrast that. In 2020, we're using 
commercially available solutions. They're off the shelf. 
They've been proven in industry. We're talking about 
smartphones, old devices. I think probably every one of us in 
this room carry some type of phone, smartphone type of device. 
We may carry a tablet, that type of thing. So a huge 
difference. This is not unproven, single-use, proprietary 
technology.
    What also comes with that? Industry itself, all of the 
carriers, major telecom carriers, as well as the device 
providers, have invested significant amounts of expertise, 
research and development dollars into helping secure those 
devices.
    So, again, this is not something where the Census Bureau by 
itself takes the lead responsibility along with its industry 
partners. That's a huge, important, significant difference in 
my ability to say to you with confidence we're not repeating a 
similar type of scenario. We're using proven technology, well 
understood, well proven in the marketplace. We are then, 
additionally, applying our own NIST-driven security protocols, 
risk framework, cybersecurity framework, GAO recommendations, 
IG recommendations all come into play, so that we have a 
significantly higher degree of confidence in being able to use 
those platforms in field operations.
    Mr. Connolly. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Meadows. The chair recognizes the gentleman from Iowa, 
Mr. Blum, for 5 minutes of questioning.
    Mr. Blum. Thank you, Chairman Meadows.
    Thank you to the panel today for sharing your insights with 
us.
    They say that genius is the ability to reduce the 
complicated to the simple. And it would be great to have a 
little genius in the Federal Government. So toward that end, 
Mr. Cooper, do we have a database of all the addresses in the 
United States of America.
    Mr. Cooper. My understanding is the closest we have to that 
in the Census Bureau is the Master Address File. I believe that 
in addition to that there are supplemental databases, also 
administrative records that the Director has talked about in 
some of the earlier GAO testimony. Therefore, I'm going to say, 
but I'm going to ask for help from my fellow panelists, I don't 
believe that there's a single master file of every housing unit 
in the United States.
    But is that in the Master Address File?
    Mr. Blum. Would the Postal Service have that?
    Mr. Thompson. Can I respond?
    Mr. Blum. Absolutely.
    Mr. Thompson. We maintain a master address list that we try 
to make as accurate as possible, that contains every address in 
the United States, both mailable addresses and those that 
aren't mailable. And we are in the process now of continuously 
updating it. So we work with the States and localities that 
want to participate and take their lists and put into it. Twice 
a year at least we get a feed from the post office and they 
give us updates to their delivery sequence file. So we try to 
maintain this address list and make it as accurate as possible 
so that when we take the Census we have every housing unit in 
there.
    Mr. Blum. Safe to say we have 99 percent of the addresses 
in the country in the Postal System's database? Ninety-eight 
percent? High percentage?
    Mr. Thompson. So we actually believe that we have an 
address list that is a little more complete than the post 
office's list because we actually go into structures that don't 
receive mail and list the addresses. And part of what we're 
going to do before the next Census in about 25 percent of the 
country is actually go knock on doors, ask if there are hidden 
addresses, to make sure that we get every address in the 
country where someone can reside, whether or not they get mail 
at that address.
    Mr. Blum. And your job is to count the number of people 
living at each address, correct, simply put?
    Mr. Thompson. Yes.
    Mr. Blum. I just want to make sure. Maybe I'll ask Mr. 
Cooper this. Do you think we're unnecessarily complicating 
this? I come from the high-tech industry, the private sector. I 
know how this can go.
    Mr. Cooper. My direct answer would be no, sir, I don't 
believe that we are overly complicating it. But here is what's 
going on. We're moving from pencil-and-paper processing to 
leveraging technology in a more fully automated way. So the 
transition is complicated, complex, and we need to manage that 
extremely well and extremely rigorously and thoroughly. But I 
do not believe that we are making it more complicated than it 
needs to be.
    Mr. Blum. Mr. Cooper, I think it's called CEDCaP?
    Mr. Cooper. Yes, sir.
    Mr. Blum. I read there was a mention of the last Census, I 
believe we had over 100 duplicative systems? To me, that's, A, 
amazing, and, B, a recipe for disaster. How are we changing 
that this Census?
    Mr. Cooper. CEDCaP, I admit, Congressman, I don't know the 
exact numbers. So I accept the numbers that you're saying on 
what did exist and the number of duplicative systems.
    Here's the really good news. CEDCaP, in fact, is being 
architected, engineered, and it is well on the way to replace 
all of those, at least as many as are appropriate to the 2020 
decennial and the concomitant operations, to replace that with 
a single architected, well understood, not complicated 
environment ecosystem, if you will, that will serve all data 
collection and all operational processing of that data in the 
conduct of the 2020 decennial.
    Mr. Blum. The last thing, my time is running short, as I 
was reading, it seems to me the largest savings is in the 
Nonresponse Followup organization, $2.5 billion in savings, 
which would be fantastic. The wording in there said that we've 
developed or are developing a prototype system that 
incorporates commercial off-the-shelf technology, which I think 
is great, rather than developing it custom. Can you talk to me 
about that?
    Mr. Cooper. As much as I have been fully briefed and I 
understand what I've been told, which are two different things, 
the fact that we are using commercial off-the-shelf solutions 
is certainly something that I, in my CIO role, are fully 
supportive of. Based on your reflection on your background, I 
fully concur with you.
    By using commercially proven off-the-shelf software, same 
thing that I testified just briefly about, the mobile devices, 
mobile technology, that type of thing, those same benefits 
apply, okay? We have proven technology. We've got a lot of 
additional expertise that has been brought to bear. It usually 
incorporates architected security features that we then can 
take advantage of. They're well known, well proven across the 
industry.
    Wherever we can, and it's in the operational plan that was 
recently shared with Congress and released publicly, we are 
leveraging commercial off-the-shelf software and solutions.
    Mr. Blum. Excellent.
    And I'll yield back the time I do not have, Chairman 
Meadows.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentlewoman from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    The CEDCaP program is intended to help the cost-saving 
efforts for 2020. Mr. Cooper, your written testimony for today 
notes that CEDCaP, ``aims to create an integrated and 
standardized system-of-systems that will offer shared data 
collection and processing across all Census Bureau 
operations,'' and you seem very positive about the program.
    Ms. Cha, what steps should the Bureau take to ensure that 
CEDCaP systems are ready for planned end-to-end testing.
    Ms. Cha. Sure. So with CEDCaP, the system-of-systems 
approach, there are 12 projects underneath it. And what we find 
across the Federal Government with these troubled or failed IT 
projects, the common thread behind all of these is that they're 
simply too large in scope. And so, obviously, with FITARA and 
the best practices that GAO endorses, going incremental is the 
right approach. You want to chunk out these large scope efforts 
into these smaller pieces that are more manageable in nature.
    So in looking at the scope of CEDCaP itself, it's simply 
too large given the time remaining. And the concern that we 
have from GAO's perspective is we're getting to a point where 
time is going to drive the technology that can be delivered for 
2020, as opposed to business requirements. So the absolute 
first thing that the Bureau should be doing is to make these 
key IT decisions as soon as possible.
    Ms. Kelly. And what would be the effect if the Bureau does 
not have that CEDCaP systems in place before end-to-end testing 
begins?
    Ms. Cha. Right. Well, the end-to-end testing is absolutely 
critical ensuring that--in terms of an effect, you know, most 
recently the most high profile effect that we have seen is 
healthcare.gov, where they gave short shrift to that end-to-end 
testing. And so if the schedules keep compressing and move to 
the right, then we very could well could have another 
healthcare.gov on our hands.
    Ms. Kelly. Mr. Thompson, do you disagree with that?
    Mr. Cooper. First, overall, we absolutely concur with our 
GAO colleagues. We are doing some very specific things, 
including applying learning from healthcare.gov. I would agree 
with Ms. Cha that a significant failure was the lack of 
comprehensive end-to-end testing.
    We are doing, I think, exactly the right type of approach 
and it does accommodate the recommendations coming from GAO. 
First, one way to think about how we are going at CEDCaP is 
it's a building block approach. I mean, playfully think Legos. 
We're creating modules and we are thoroughly both planning the 
integration, rigorous architecture around each of those 
modules. Those modules or building blocks are then being 
brought together. But we know where the integration of these 
building blocks occurs, we have both unit testing and system 
testing for each of these building blocks, and they are being 
tested again.
    So we have full-time. I admit we have to stay on schedule. 
If we slip schedule, that's a risk. And I can share what we're 
doing to prevent that and to accommodate it if it should occur. 
But most important, we've built into our plan a very aggressive 
and rigorous iterative approach, agile approach, so that we're 
not building out the entire solution before we test anything. 
We're testing as we go. The likelihood that we will miss any 
fatal error becomes significantly reduced by this approach.
    Then, when we kind of add and test, add and test, add and 
test--and when I say add, it's additional functionality, 
additional capability--what we end up with is significantly 
reduced risk as we move toward our end-to-end testing.
    Ms. Kelly. Okay. Mr. Thompson, any other comments?
    Mr. Thompson. No, I agree with Mr. Cooper. We enjoy the 
relationship we have with the Department of Commerce and the 
governance process that we have in place.
    I would say one thing, that I was fortunate enough to have 
been the career person in charge of the 2000 Census. And we 
successfully delivered a number of very, very complicated IT 
systems that were state of the art at the time.
    When I went to NORC in Chicago we also put in place some 
very, very sophisticated IT systems. So I have a lot of 
experience in working with creating IT systems that work. And 
that's one of the reasons I came back to the Bureau, because I 
saw an opportunity to realize technology to save the government 
a significant amount of money and improve accuracy.
    Ms. Kelly. According to the operational plans, the Bureau 
will begin preparations for end-to-end testing of all systems 
and operations August 17. Is that accurate? 2017.
    Mr. Thompson. That's accurate. We refer to it as the 2018 
test because the Census Day is April 1, 2018, but we have to 
start in preparations in 2017.
    Ms. Kelly. Okay. I yield back also the time I don't have.
    Mr. Meadows. I thank you.
    Mr. Cooper, let me follow up on you indicated that one of 
your concerns was that it was a proprietary technology, the 
handheld technology of our previous fiasco, I guess is how I 
would characterize it, and that somehow because we now have 
smartphones that that's going to fix the problem.
    We had smartphones in 2008, at least we did in North 
Carolina. I assume you did here in Virginia. So if that's the 
case, it's not really a hardware problem, it's something a lot 
more significant than that.
    Mr. Cooper. I would agree with you. What I meant by a 
proprietary solution was is that we were building an integrated 
hardware platform that was----
    Mr. Meadows. Who was building it?
    Mr. Cooper. Census Bureau and----
    Mr. Thompson. Harris.
    Mr. Cooper. Harris Corporation was the prime contractor on 
that integrated solution.
    Mr. Meadows. So when it failed, who pointed the finger at 
whom?
    Mr. Cooper. I would have to defer to my colleagues. I was 
not present in the Department of Commerce at the time and I 
don't know the answer.
    Mr. Meadows. If I see somebody smiling behind you maybe you 
can ask him.
    Oh, you've got that Director Thompson.
    Mr. Thompson. So I actually was involved in the issue. I 
was called by Secretary Gutierrez to be on the special panel 
that give him recommendations, so I did look at it. And it 
seemed like that there was a lot going on on both sides in 
terms of defining and agreeing on what the specifications 
should have been. But the big problem was they were trying to 
invent a software--a hardware technology that just didn't 
exist.
    Mr. Meadows. But aren't we trying to do--we're trying to 
develop an app now for an iPhone? I don't want to say iPhone. 
Android. Whatever it is. I mean, I can see that the endorsement 
comes. Is that what we're trying to do, is develop an app?
    Mr. Cooper. Yeah, the difference----
    Mr. Meadows. Because here's my concern. We're talking about 
all this testing that's going on. How do we test something that 
we haven't even decided what the design is all about. I mean, I 
don't buy that, that we're testing.
    Mr. Cooper. That's fair. In this case what we are already 
operationally field testing is the following: We are using a 
well-proven--my remarks--a well-proven platform. Think of 
this----
    Mr. Meadows. So we're using the smartphone.
    Mr. Cooper. All right. We have developed, it's already 
developed, we have a developed application----
    Mr. Meadows. You've got an app.
    Mr. Cooper. Yes, sir.
    Mr. Meadows. So I could download the app on my phone today.
    Mr. Cooper. Yes, sir. Yes, sir.
    So the field testing, most recently in Scottsdale, Arizona, 
and it's planned now for several additional broader locations, 
the application rides on a proven platform rather than that 
integrated, single hardware integrated with proprietary 
software that we did in 2010. A very different approach, 
architected very different.
    It allows us to do a couple very important things. First of 
all, with a proven technology platform, what we are really 
focused on is, as best we are able to, industry plus best 
practice, industry best practice, our best practices, secure 
the platform itself. More importantly, the application is about 
collecting the data. We now have the ability to separately go 
after securing the application, access to the application----
    Mr. Meadows. And I get all that. Let me cut to the chase.
    Mr. Cooper. Please.
    Mr. Meadows. Here is my concern. Looking at your time frame 
and how it's already moved to the right, and looking at when we 
will be testing it and when you will go out with your RFP for 
whether you build it or somebody else builds it, we're running 
out of time. And if we're sitting there worried about how a 
handheld device is collecting the very simplest of data, and I 
come from where Google headquarters, all your data is stored in 
my district, and so if that's what we are working on at this 
point, you know, that's like saying we're working on the 
steering mechanism for a car, believing that the car is going 
to work okay. It may steer okay, but it may not run.
    And so that may be a crude analogy, but we have to be a lot 
more end to end in terms of what we're trying to do. And my 
concern is from a technology standpoint, we are nowhere near 
close, other than conceptual. And I see some heads shaking no, 
so they're saying that that's inaccurate.
    So go ahead, I'll give you this chance to--I'm sorry, I 
keep reading body language behind you. But go ahead.
    Mr. Cooper. We don't have the advantage of seeing behind, 
but I can see it in the reflection of my glasses.
    Mr. Meadows. You must not be a parent. We have eyes in the 
back of our heads.
    Mr. Thompson. I'm a parent, but my youngest kid is 30 years 
old.
    Mr. Meadows. Go ahead.
    Mr. Thompson. So we have already built a prototype system 
and tested it in the field and we are----
    Mr. Meadows. For the data collection?
    Mr. Thompson. For the data collection and for the control. 
And we built that system using basically existing technology 
and existing software from vendors. We only put our parameters 
into it. We didn't invent new software.
    The big decision we have to make is do we scale up this 
prototype to do the whole Census or do we buy a solution to 
scale it up. But we already have defined requirements for what 
we need, that's the beauty of this prototype. So we have the 
requirements for what the device has to do, and we have engaged 
the Carnegie Mellon Software Engineering Institute to help us 
make the right build-or-buy decision and put that----
    Mr. Meadows. But, Director, how is that different than what 
we had in 2008? Because we had a defined technology. It was 
proprietary given that, so maybe it was not proven. But how is 
it different than that?
    Mr. Thompson. So in 2008 they didn't have the 
specifications.
    Mr. Meadows. So we designed something with not knowing? 
You've got to be kidding.
    Mr. Thompson. They were still trying to design the 
specifications.
    Mr. Meadows. Okay. All right.
    Ms. Cha, let me come to you. What am I missing here in 
terms of do you have concerns?
    Ms. Cha. We do have concerns. And, Chairman Meadows, to be 
clear, the systems that they're talking about at this time are 
the applications. These are prototype systems. And, again, in 
terms of scaling it to the production needs for 2020, we do 
have concerns that given the available time remaining, that 
hardening those prototypes so that they meet 2020, that's not 
an assumption--I think that's a dangerous assumption to make, 
that these prototype systems will be in place.
    But I think for the key lesson learned from 2010, coming 
out of that, it's that the Bureau underestimated the technical 
complexity associated with those handhelds. And so even though 
they are not developing new devices, that lesson is still 
important in looking at the total magnitude of what they are 
intending to do with the operational control system to manage 
the field work with the Internet response option, with the 
devices that ultimately will be deployed.
    When you look at this collectively in the remaining time, I 
think it's fair for the Bureau to again make decisions now, 
take steps to reduce scope, take things off of the table so 
that they are positioned for success.
    Mr. Meadows. I'm out of time. Let me just share this. We 
want you to succeed. But the other thing that Mr. Connolly and 
I and Mr. Hurd and Ms. Kelly, we don't want egg on our face. 
And there is no way I'm going to allow this to continue to 
progress without certainty.
    Mr. Cooper, one of the problems I see is the lack of 
specificity in terms of deadlines and what is to be 
accomplished by those deadlines. So I'd ask that you work with 
the committee on providing that.
    And ultimately you're going to have four people, as Mr. 
Connolly said, willing to go and fight for appropriations and 
get you the tools, but lack of planning and lack of strategic 
implementation is something that we don't want to find 6 
months, 12 months from now where we are spending a lot of money 
going the other way.
    I'm going to recognize the gentleman from Missouri, Mr. 
Clay, for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman. And hopefully I can take 
some liberties with the time just to share with you and the 
rest of the committee that for the 2010 Census I was sitting in 
your chair, I chaired the Oversight Committee. And when we ran 
into the issue with the handheld, it cost the taxpayers quite a 
bit. It doubled the cost of the 2010 Census compared to the 
2000 Census. And it was a mistake that should have been 
avoided, but wasn't. And so hopefully we have learned from that 
mistake.
    And according to GAO, fundamental weaknesses in key IT 
management practices contributed to the Bureau not being able 
to successfully deploy custom-developed handheld enumeration 
devices for Nonresponse Followup, which increased the cost of 
the Census by up to $3 billion.
    GAO has reported that the Bureau faces a number of 
challenges with, ``developing and deploying the information 
technology systems and infrastructure it plans to rely on to 
conduct the significantly redesigned 2020 Census.''
    Ms. Cha, is that correct?
    Ms. Cha. That's correct.
    Mr. Clay. Mr. Cooper, what is your response to that 
assessment?
    Mr. Cooper. I think, as we have stated, first, we agree 
with the GAO recommendations. We are working diligently to 
respond to all of those recommendations. We've shared some of 
the numbers and the status with you. We'll continue, you have 
my commitment, we'll continue to keep all of you informed of 
this status as we move forward.
    I heard Chairman Meadows loud and clear over addressing the 
concern over lack of decision deadlines; same point made by 
GAO. I hear it. I will certainly personally take the commitment 
to address it, working with my Census Bureau colleagues.
    I think that's the quick summary of the approach, and I'm 
more than happy to come back, dive into detail, and add any 
additional information that would be helpful.
    Mr. Clay. All right, okay.
    Now, let me address the next one to Mr. Cooper. And let me 
preface this by saying this is 2015, and if I'm correct, this 
is the time to ramp up, to get ready for the 2020 Census. And, 
Mr. Thompson, I heard you loud and clear that this is not the 
time for Congress to be playing tricks and using smoke and 
mirrors with the Census Bureau's budget because this is ramp-up 
time, this is time for you to be prepared to eventually get to 
2020 and conduct the Census successfully and to eliminate the 
undercounts and the overcounts.
    But, Mr. Thompson, in April 2014, GAO reported that the 
Bureau had not prioritized key IT research and testing needed 
for its design decisions. How do you respond to that?
    Mr. Thompson. So what we have done is we have been working 
very diligently to do research and testing. We started in 2013 
when the Bureau--that's before I got there, the Bureau had some 
budget cuts, and they reprioritized their whole, entire 
research program. And importantly, they established the key 
milestone, which was for the beginning of fiscal year 2016, 
this past September, that they would release an operational 
plan that did two things. It laid out as many key decisions as 
could be made and, importantly, laid out a process for making 
the remaining decisions.
    And we have at the Bureau done that. We released an 
operational plan. It lays out a schedule. It lays out a 
schedule for making our key decisions, leading up to an 
integrated end-to-end task in 2018--well, Census Day is 2018, 
it starts in 2017.
    Mr. Clay. Sure.
    Mr. Chairman, may I talk to Mr. Goldenkoff, because he and 
I were involved in the 2010 Census.
    Do you see anything we need to be watching out for going 
from this time line forward that are similar to what we 
experienced in the 2010 Census?
    Mr. Goldenkoff. Yes. I think that both the Census Bureau, 
the Department of Commerce, and both subcommittees need to be 
extremely sensitive to the early warning signs. And I think 
that some of those early warning sides were not heeded back in 
the lead-up to the 2010 Census. For example, GAO had pointed 
out a number of issues with the handheld device beginning, I 
believe, in 2006. There were yellow flags being raised all over 
the place. And there was just a tendency, I think, for the 
Census Bureau to perhaps discount some of those concerns.
    I think the environment is much better now, the Census 
Bureau is much more responsive to recommendations from us, to 
your oversight, from the IG's office, but we just need to be 
sensitive to those early warning signs. Delays, you know, 
concerns about the lack of time, they're starting to crop up. 
So funding issues, need to make sure that the Census Bureau has 
reliable funding throughout the course of the decade. It is not 
only the actual amount of the money that they get, obviously 
that's important, but uncertainty is also an issue too.
    So those are some things that right now, while there's 
still time, we all need to be sensitive to.
    Mr. Clay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman for his insightful 
questions.
    And the chair recognizes Mr. Grothman, the gentleman from 
Wisconsin.
    Mr. Grothman. Thank you. I have a couple of questions here.
    Over time I think, you know, insofar as a garden variety 
legislator who calls about the Census, it's about some of the 
questions that are asked. Not about the Census every 10 years, 
but, I don't know what you call them, these more broad 
questionnaires that get sent out, correct? What do they call 
them, the broader----
    Mr. Thompson. Are you referring to the American Community 
Survey?
    Mr. Grothman. Yeah. How long do you retain the information 
on those surveys?
    Mr. Thompson. Since they are part of the decennial Census, 
we retain a permanent record of them. And 72 years after 
they're collected then they can be made available to the 
American public.
    Mr. Grothman. You mean, you're even going to make those 
available sometime, even 72 years?
    Mr. Thompson. In 72 years, yes, sir.
    Mr. Grothman. What are we doing to make sure? I mean, some 
of those things when I get questions they wonder why is it any 
of the government's business. And while it hasn't necessarily 
been your organization, certainly other government 
organizations have not been able to protect their data. Maybe 
that's an impossible thing to do, but I am just saying you've 
got to realize that when you fill out a government form there's 
a possibility that someday the whole country will know what's 
on it.
    Are you doing anything--I'll put it this way. On those 
community surveys, is there any reason why that stuff has to be 
held more than 3 or 4 years?
    Mr. Thompson. Yes, sir, it's part of our national records 
program. And so as being part of the decennial Census we're 
mandated to make those records available to the public for a 
number of important reasons, so people can look at--can do 
ancestor research, so people can understand how their ancestors 
were working.
    Mr. Grothman. I understand it's kind of cool that I can 
look up and find my, whatever, great-grandfather was living 
wherever in 1880. But beyond that, there's stuff here that 
people don't want to have let out. So I'll ask you again, why--
given that I would assume sooner or later you're going have a 
breach of your database, every other government agency seems 
to--is there any reason why you personally feel that if I fill 
out a form some information of which may be considered somewhat 
personal or at least they don't want everybody to know, any 
philosophical reason why that stuff has to be kept around?
    Mr. Thompson. As I said, we at the Census Bureau believe 
it's very important that we maintain a record of the Census and 
make that available in 72 years.
    Now, the Census Bureau takes security and privacy of our 
information very, very seriously, and we could go into great 
lengths about how we go about protecting the PII of our 
respondents and how we have a number of layers between that and 
any way to get to it. And so that's job one. Plus, we have some 
really severe penalties in place if there is willful disclosure 
of any kind of information.
    Mr. Grothman. Well, I'm sure that the IRS takes their 
responsibility seriously and whatever our equivalent of human 
resources is takes their responsibility seriously. And I 
realize we want to keep the bare bones minimum of the Census 
available out there. Like I said, we should maybe always know 
that Glenn Grothman in 2020 is living in Glenbeulah, Wisconsin. 
But why are we keeping all this more personal stuff? What is 
the sense of keeping that available for either some hacker to 
get ahold of it or even some busybody to look at it in 70 
years?
    Mr. Thompson. Congressman, we are actually mandated by 
law--and don't ask me the specific cite, I'll be happy to get 
it to you--to maintain those records as part of the decennial 
Census.
    Mr. Grothman. Okay. But you don't have an opinion on it 
personally?
    Mr. Thompson. My opinion is to do the Census as the 
Congress shall direct. So that's basically my opinion.
    Mr. Grothman. Okay. I'll give you one more question here, 
which is kind of the parting question. We still don't know 
whether you're going to use the NDNH or the kids link sources. 
When are you going to decide whether you're going to use those 
or not, or what is going to determine whether or not you're 
going to use them, have access to them?
    Mr. Thompson. So we're going to make our final decision on 
the exact administrative records we'll use, which will be in 
2018, and that would include whatever we've been able to put 
together, and that's what we're going to go forward with. We're 
not going to change after that point.
    Mr. Grothman. Thank you.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. I thank the gentlemen and ranking member for 
calling this important hearing and all of the participants 
today. The Census is mandated in the United States 
Constitution. It's a requirement illustrated right in the 
Constitution. And historians constantly refer to it, documents 
refer to in it ways that help us understand our history and 
understand our country. And I'm glad that we're focusing on it, 
because if we don't have good data, if we don't have a good 
Census, then we don't have good policy.
    I would also say the Census is relied on more and more by 
businesses and others to understand our country, where we are, 
where we're going, what our needs are. And I would say the 
allocation of Federal funds is dependent on Census data, as is 
oftentimes public policy in general, and it's incredibly 
important.
    But that said, I want to really associate myself with the 
comments of the prior speaker on the importance of keeping it 
confidential, that this is a critical trust that this be kept 
confidential until 70 years later. And I do want to cite that 
there happens to be a Broadway play playing right now in New 
York on a violation of the Census data during World War II, 
where the Census data was used to round up Japanese Americans 
and place them in detention camps. It's probably the worst 
chapter of the Census in the history of our country, that our 
sacred data that we pledge will be confidential was violated. 
So that was a bad, bad, bad era.
    But I do want to go back to cybersecurity and that we have 
to take the cybersecurity seriously. And I want to say that in 
light of a recent cyber incident at the Bureau, I want to 
better understand the data controls currently in place. I don't 
believe that the Census would ever give up data in this day and 
time, you know, willingly. I don't believe that at all. I think 
it's totally confidential. But I am concerned about a cyber 
incident.
    And I'd like to ask Mr. Thompson, the Director, on July 24 
you issued a statement confirming that the Bureau, and I am 
quoting from you, ``experienced an attack to gain access to the 
Federal Audit Clearinghouse.'' And can you first explain to us 
what is the Federal Audit Clearinghouse? And your statement 
went on to say, ``While our IT forensics investigation 
continues, I want to assure you that at this time every 
indication is that the breach was limited to the this database 
and that it did not include personally identifiable information 
provided by people responding to our Census and surveys.''
    So your comment please on that.
    Mr. Thompson. Thank you. So that is a database--what we 
call a Web-facing database that we maintain that sits between 
our firewall and the outside. And so that database was 
maintained for people to put certain types of information in 
which is nonsensitive information and that's the database that, 
unfortunately, got breached. We've taken steps since then, 
which Mr. Cooper could explain better than I can because he's 
more of an IT person, to rectify that problem.
    But importantly, we also have safeguards that will not let 
anything past our firewall which will get to the personally 
identified information at the Census Bureau, and that was not 
breached in that circumstance.
    Mrs. Maloney. Okay. Can you share with us the results from 
the forensic investigation, Mr. Cooper?
    Mr. Cooper. Yes, ma'am, I can.
    Mrs. Maloney. And what steps have you taken to prevent a 
similar cyber incident in the future?
    Mr. Cooper. Okay. First what our forensic analysis has 
shown to date is that gives us the time line of the attack and 
the source addresses from which the attack was launched, both--
--
    Mrs. Maloney. Where do you think it came from? Where do you 
think the attack came from?
    Mr. Cooper. In this environment, could I maybe follow up 
and get with you all in a different physical environment to 
discuss that with you please?
    Mrs. Maloney. Okay. Thank you.
    Mr. Cooper. If you'd allow me to do that.
    Now, we've also worked very, very closely with our 
colleagues at the FBI and with the Department of Homeland 
Security, so that that becomes part of the intelligence 
community environment, that helps us at the Census Bureau, it 
helps our colleagues across the Federal Government. So there's 
the first part that I can answer in this setting today.
    Second part. We have indeed installed new security 
measures, and let me give you a quick summary of those.
    First of all, we have--we're in the process of implementing 
Web application scanning capability that we did not have 
broadly in place at the time of that breach. We've also 
included funding in our fiscal year 2016 budget to bring the 
cybersecurity company we used in fiscal year 2015, ``we'' in 
this case being the Census Bureau, back to do another scan.
    And I have instituted as the CIO regular scanning. We have 
reached out to some other Federal departments to assist us with 
what's called blue team assessments, blue team attacks, which 
are friendly attacks against our environment to help identify 
threats and vulnerabilities that we may not have uncovered 
ourselves.
    We're also actively engaged with our colleagues at the 
Department of Homeland Security. We have fully implemented all 
available Einstein precautions to enhance and strengthen our 
cyber scanning capability to identify threats and critical 
vulnerabilities. We're working very closely with the 
Department, Department of Homeland Security, to implement as 
part of what's known as phase two of the Continuing Diagnostics 
and Mitigation program of DHS. We are now working and we will 
be deploying additional CDM capability, more scanning and 
software tools, sensors, in our networks.
    All of this strengthens our environment and enhances our 
capability from the time of the breach even till now, and will 
continue to do that going forward.
    Mrs. Maloney. Well, my time has expired, but possibly you 
could get back to us in writing the controls the Census Bureau 
has in place to protect this collected data.
    Mrs. Maloney. I think it's very important. And people want 
to know that their data is protected, as the gentleman 
mentioned earlier.
    I thank you and I yield back.
    Mr. Meadows. I thank the gentlewoman.
    Just for planning purposes, we're going to have a very 
brief second round of questions, and by very brief only a few 
members, I think, are going to participate in that.
    So the chair will recognize the chairman of the 
subcommittee, Mr. Hurd, for a series of questions.
    Mr. Hurd. Gene Dadaro is going to get mad at me for asking 
this question, but, Ms. Cha, I hear there is a position 
available at the Bureau, the Census Bureau, for chief of 
business integration. Would you be interested in taking a 
sabbatical to take that position? I think you would be well-
positioned for that.
    But, Mr. Cooper, Mr. Thompson, if I understand this 
correctly, you're basically crowdsourcing people to answer 
some--you know, to get better information, have them get that 
information into you. We didn't even get to ask many questions. 
Not knowing how many people you expect to respond to that, 
that's going to drive your technology decisions and the 
infrastructure. Two years out, that's difficult.
    But let me understand this bring your own device or buying 
a new device. Are we talking about having--buying actual 
smartphones that have the app already on there with the 
security systems established or are we talking about a new 
designed device that's not a smartphone but it's used 
specifically for you all? I'm confused.
    Mr. Cooper. Okay. In this case it would be the former of 
your two scenarios.
    Mr. Hurd. Okay. So it's a smartphone that everyone is going 
to use. And when are you going to make the decision----
    Mr. Cooper. That would be option one, and that would be a 
government-furnished device. Options two would be bring your 
own device and we will then load the----
    Mr. Hurd. And when are you making this decision on which?
    Mr. Cooper. September 2016.
    Mr. Hurd. September--how many months is that?
    Mr. Cooper. It's about not quite a year from now.
    Mr. Hurd. Why 12 months, why that long to make a simple 
decision that's going to base--that's going to drive your 
entire plan?
    Mr. Cooper. That allows us to complete the planned and 
already in motion, in process set of field operation tests so 
that we can make both an economic-based determination as well 
as a security-based determination and include privacy and 
functionality.
    Mr. Hurd. I recognize the privacy and security concerns of 
having people bringing their own device and uploading that 
information onto some system or server that touches all of your 
databases. But this is not a new technology, right? Everybody 
on this platform have probably block walked at some point in 
time and this is just block walking on steroids.
    And I represent a very rural part of Texas that doesn't 
have cell phone service and we would still be able to do that. 
So the necessity to have a year of testing a technology and a 
process that is used pretty significantly is shocking to me. 
And that's something that I'd love to continue to talk about 
another time.
    I have two final questions, a separate issue. It is my 
understanding that missionaries and other individuals 
temporarily overseas with a clear intent to return would not be 
included in the Census. Is this correct?
    Mr. Thompson. Congressman, we are in the process right now 
of determining the residence rules that we will use for the 
2020 Census. Recently we sent out the rules that we use for 
where to count people, who to count in 2010 for public comment. 
We received a number of comments, and we are now in the process 
of responding to those comments, and we will then issue our 
plan for 2020. In the last Census, if someone was permanently 
away from the United States we did not count them in the United 
States.
    Mr. Hurd. Okay. We would welcome your documentation in 
writing on this process, it is important to a number of 
members.
    Mr. Hurd. And also, in the 112th Congress, Senator Hatch 
and Representative Bishop introduced companion bills requiring 
that all citizens of the United States temporarily living 
abroad at the time of the Census be counted and attributed to 
the State they had most recently lived in. This legislation 
also provided for the use of administrative records to assist 
in the count. Can you describe any concerns you have with this 
legislation? And we would love to see that in writing if you 
all haven't done the analysis of that.
    Mr. Thompson. At this point I'd have to respond to you in 
writing.
    Mr. Hurd. Thank you very much.
    I yield back, Chairman. Thank you.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member, Mr. Connolly, for 
a series of questions.
    Mr. Connolly. Thank you.
    Mr. Cooper, these are, I hope, brief answers to brief 
questions. Following up on Mrs. Maloney's questioning, you 
mentioned Einstein. Part of the problem with the breach at OPM 
was Einstein 3, I believe, was not yet fully implemented. Are 
we at Einstein 3 for the Census?
    Mr. Cooper. We are where our telecom providers have already 
put the Einstein 3 capabilities in place.
    Mr. Connolly. Good.
    Mr. Cooper. There is one telecom provider that is not quite 
at Einstein 3.
    Mr. Connolly. Okay. Good to know.
    Mr. Cooper. The answer is yes.
    Mr. Connolly. Secondly, in response to, I think, Mr. Blum's 
questioning, I think you acknowledged that there could be 
roughly 100 different systems--I guess at Census or Commerce?
    Mr. Cooper. That would be Census.
    Mr. Connolly. Census. Presumably some of these are legacy 
systems.
    Mr. Cooper. Absolutely, yes. I don't know the quantitative 
breakout. I can follow up and----
    Mr. Connolly. Some of those systems do not lend themselves 
as a result to encryption. Is that correct?
    Mr. Cooper. That is correct, in some cases.
    Mr. Connolly. So that makes them more vulnerable, not less 
vulnerable to hacking.
    Mr. Cooper. It's my understanding--and I'm going to defer, 
I'm going to ask over my shoulder to kind of make sure I don't 
misstate this--it is my understanding that while we do have 
legacy systems involved somewhere in that 112, it's my 
understanding that we don't have a situation where a legacy 
system that's directly involved in supporting Census operations 
leading to the 2020 decennial is not able to be encrypted.
    Is that a valid statement?
    Okay. Yes. So that would not be a situation we would run 
into in support of the 2020 Census.
    Mr. Connolly. Okay. Thank you.
    I think that's it for now, thank you very much.
    Mr. Meadows. Well, I want to close by thanking each of the 
witnesses here. I guess the most important thing, I was talking 
to the ranking member, what we would like to do is not in a 
hearing setting, but necessarily in a briefing setting is set 
some regular updates of which actually all four of you would be 
welcome for those regular updates. I think over the next 12 
months I see that as a critical window. And as much as we want 
to talk about 2020, I think the next 12 to 18 months is our go-
or-no-go timeframe. And so in doing that, to have quarterly 
briefings as to where we're making progress and where we're 
not.
    Is everybody okay with doing that?
    I see--let the record show everybody nodded in the 
affirmative.
    And, Director Thompson, Mr. Cooper, thank you, thank your 
staff for the work. I mean, sometimes it is only thought about 
when we get the results or when we have someone knocking at our 
door. There is obviously years of planning that go ahead of 
that time to make sure that it's done seamlessly. And we're 
going to count on 2020 being done seamlessly. And so I would do 
that.
    I would also be remiss in saying that many of the 
recommendations that the GAO are making are raising concerns. 
If they're not happy, I'm probably not going to be happy. And 
so I just want to stress that, that it is critical that we work 
hand in glove together, because failure is not an option.
    And with that, thank each you for your testimony here 
today.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 4:16 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               
               


                                 <all>
</pre></body></html>
